                           Closeout of M91060027

    This case arrived in                25, 1991. It came from the
                                       He forwarded a memo from-
                                        complainant. The complainant
                          proposal submitted to the           program
    contained lons sections that were the same as those In an earlier
                                            by another investigator.
                                            Principal Investigator on
    the      proposa
    OIG wrote to the subject and requested an explanation.        The
    subject replied that he had been a graduate student in the
    laboratory of the other investigator. They had worked together
    on the subject matter of both proposals.        With the senior
    investigator's permission he had revised the earlier proposal,
    which had been rejected, taking into account review comments, and
    had submitted it to NSF under his own name.           The senior
    investigator had agreed to this arrangement and had agreed to
    serve as a consultant on the project if it was funded.        The
    subject provided a letter from the senior investigator indicating
    his agreement to participate and to have his proposal used by the
    subject.
    OIG agreed that this explanation and documentation cleared the
    subject of any charge of plagiarism. The subject was encouraged
    to indicate more clearly the authorship of future proposals. OIG
    concluded that the subject had not violated any NSF regulations
    and closed the case.




I


    Copies: Inspector General
            Assistant Inspector General for Oversight
